National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001
                                                  February 28, 2008

TO:                 Chief Information Officer

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on Audit of Retention of NASA’s Official Electronic
                    Mail (Report No. IG-08-010; Assignment No. A-07-007-00)


The Office of Inspector General (OIG) conducted an audit of NASA’s retention of
official electronic mail (e-mail). Our overall objective was to determine whether NASA
was effectively and efficiently managing its official e-mail records in accordance with
applicable statutory and regulatory requirements. Specifically, we determined whether
NASA had (1) established and implemented adequate policies and procedures to ensure
that e-mail users identified, designated, stored, and retained official e-mail
communication in accordance with National Archives and Records Administration
(NARA) regulations and (2) developed and implemented training to ensure that all
Agency e-mail users were aware of and understood the process by which to identify,
designate, store, and retain official e-mail communication in accordance with NARA
regulations and NASA’s requirements. We also reviewed internal controls as they
related to the overall objective. (See Enclosure 1 for details on the audit’s scope and
methodology.)

Executive Summary
We found that NASA was not effectively and efficiently managing its official e-mail
records in accordance with applicable statutory and regulatory requirements. Although
NASA had established records management 1 policies and procedures in accordance with
NARA regulations, NASA’s e-mail retention guidance does not adequately address
NARA’s requirements for electronic records 2 management. As of January 2008, NASA

1
    NARA Title 36, Code of Federal Regulations (C.F.R.), Part 1220, “Federal Records; General,”
    Section 1220.14, “General Definitions,” defines records management as the planning, controlling,
    directing, organizing, training, promoting, and other managerial activities involved with respect to records
    creation, records maintenance and use, and records disposition in order to achieve adequate and proper
    documentation of the policies and transactions of the Federal Government and effective and economical
    management of agency operations.
2
    NARA 36 C.F.R., Part 1234, “Electronic Records Management,” Section 1234.2, “Definitions,” defines
    electronic records as any information that is recorded in a form that only a computer can process and that
    satisfies the definition of a Federal record. NARA 36 C.F.R., Part 1220, Section 1220.14 defines records
    to include all books, papers, maps, photographs, machine readable materials, or other documentary
    materials, regardless of physical form or characteristics, made or received by an agency of the
    U.S. Government under Federal law or in connection with the transaction of public business and
    preserved or appropriate for preservation by that agency or its legitimate successor as evidence of the
    organization, functions, policies, decisions, procedures, operations, or other activities of the Government
    or because of the informational value of the data in them.
                                                                                                         2



personnel continued to operate under Chief Information Officer (CIO) Executive
Notice 12-96, “NASA Electronic Mail,” which was issued in February 1996 and
modified once in February 2000. Updated guidance was needed to replace the Executive
Notice, which lacks details on the retention of official e-mail correspondence and cites
NASA policies that no longer exist.

The responses to our survey questionnaires, 3 which were designed to verify compliance
with regulations and requirements, also showed that NASA was not managing its official
e-mail records in accordance with applicable statutory and regulatory requirements. Of
the 40 senior management officials surveyed, 37 (92.5 percent) were noncompliant with
regulations and requirements to identify, designate, store, and retain official e-mail
correspondence. The responses also showed that NASA was not performing reviews in
accordance with NARA regulations and NASA’s requirements, and none of the
documented reviews specifically addressed electronic records management. Electronic
records management reviews can better ensure that Agency personnel are identifying and
retaining official e-mail correspondence as required by NARA regulations and NASA’s
requirements.

NASA’s noncompliance with NARA regulations and NASA’s requirements for records
management increases the risk of permanent loss of (1) institutional memory, (2) records
containing essential transactions that protect the legal and financial rights of the
Government and persons directly affected by NASA activities, and (3) records permitting
NASA to be responsive to Congress and oversight agencies.

NASA, in an effort to more efficiently and effectively manage its official e-mail
correspondence, developed comprehensive electronic records management guidance and
Agency-wide electronic records management training. The guidance was approved
February 4, 2008, and NASA implemented the training in February 2008. Also, in
November 2007, NASA began migrating existing e-mail server environments to a single
Agency-wide e-mail system called NASA Operational Messaging and
Directory (NOMAD) to manage its multiple e-mail server environments. NASA expects
that the migration will be completed by the end of the second quarter of calendar
year 2008 and that NOMAD will be fully operational by the end of fiscal year 2008.

NOMAD, once fully operational, will serve as NASA’s e-mail system. NOMAD will
also serve as the interface with, initially, an e-mail archiving capability and, later, with a
records management application. As an interim measure until NOMAD becomes fully
operational, NASA identified and began capturing all e-mail correspondence of 146 “Top
Management Officials” for permanent retention. NASA defined Top Management
Officials as heads of any organizational level that has been delegated the responsibility of
serving as “office of record” or “Office of Primary Responsibility.” The interim
measure, while meeting NASA’s retention schedule requirements for Top Management

3
    Two different surveys were conducted. See Enclosure 3 for the questionnaire used for Senior
    Management Officials and Enclosure 4 for the questionnaire used for the Records Officer and Center
    Records Managers.
                                                                                          3



Officials, does not fully comply with NARA’s electronic recordkeeping regulations for
electronic records retention. All Center e-mail systems will be integrated into NOMAD
by the end of the second quarter of calendar year 2008, and senior management’s e-mail
messages will be archived beginning the third quarter of calendar year 2008.

Our January 18, 2008, draft of this memorandum recommended that the Office of the
CIO finalize and issue the revision to NASA Procedural Requirements (NPR) 1441.1D,
“NASA Records Retention Schedules (w/Change 3, 1/31/06).” The draft NPR revision
provides specific guidance for electronic records management. Once revised, NASA
should rescind CIO Executive Notice 12-96. Also, we recommended that the NASA CIO
implement mandatory electronic records management training; reinforce the
identification, retention, and archiving requirement of official electronic
records (including e-mail); and monitor electronic records management reviews to ensure
they are performed as required by NARA and NASA.

NASA management’s comments on the draft of this memorandum are responsive (see
Enclosure 5). We have closed two recommendations and will close the other two upon
completion and verification of management’s corrective action.

Background
Under the National Archives and Records Administration Act of 1984, NARA is
responsible for ensuring the adequacy of documentation and records disposition, and
Federal agencies are responsible for ensuring that records management programs comply
with NARA regulations. Specifically, NARA 36 C.F.R., Section 1234.10, “Agency
Responsibilities,” requires agencies to develop and implement an agency-wide program
for the management of all records created, received, maintained, used, or stored on
electronic media. NARA requires agencies to establish procedures for records
management, provide adequate training, and perform reviews to ensure conformance to
established agency procedures, standards, and policies.

NARA 36 C.F.R., Section 1234.24, “Standards for Managing Electronic Mail Records,”
states that agencies must not use a recordkeeping system that includes e-mail messages
unless that system (1) provides for the grouping of related records, (2) permits easy and
timely retrieval of both individual records and files, (3) retains the records in a usable
format for the required retention period, (4) is accessible by individuals who have a
business need, (5) preserves the transmission and receipt data, and (6) permits transfer of
permanent records to NARA. If the e-mail system is not designed to be a recordkeeping
system, agencies must instruct staff on how to copy Federal records from the e-mail
system to a recordkeeping system. NARA regulations require agencies that maintain
paper files as their recordkeeping system to print their e-mail records and the related
transmission and receipt data.

NASA Policy Directive (NPD) 1440.6G, “NASA Records Management,” December 12,
2002, and NPR 1441.1D implement the NARA regulations. NPD 1440.6G mandates that
NASA management implement adequate training, processes, and controls to properly
                                                                                                        4



preserve official Agency records regardless of format or media (including e-mail
correspondence) and to protect the trustworthiness of electronic records. NPR 1441.1D
sets forth the guidelines and retention schedules for Federal records based on the record
category 4 and the position of the employee creating the record. Section I.7 of the NPR,
“Electronic Records,” includes the following:
           a. Electronic records are electronically recorded data (including e-mail), or paper
           records converted, that meet both of the following conditions are Federal records and
           must be scheduled and cared for appropriately:

               (1) They are made or received by NASA under Federal law or in connection
               with the transaction of public business; and,
               (2) They are preserved or appropriate for preservation as evidence of
               NASA’s activities or because of the value of the information they contain.
               The same policies and procedures that apply to other record mediums also
               apply to electronic records with a few exceptions. These exceptions are
               based on the need to have information about the system, the media being
               used, and the data being acquired.

Because NASA does not have an official electronic recordkeeping system, NASA
requires identifying, printing, and filing of official e-mail correspondence in accordance
with NARA’s recordkeeping regulations for paper files. NASA’s CIO Executive
Notice 12-96, which was modified in February 2000 and was in effect as of January
2008, provides guidance specific to official e-mail correspondence, stating that e-mail
should not be used for official business. The Executive Notice also states, however, that
should official business be transacted using this system (e-mail), hardcopy documents of
the e-mail messages must be produced, filed, maintained, and disposed of in accordance
with appropriate records management guidance. In addition, the Executive Notice states
that e-mail systems are not storage systems.

NASA Had Not Finalized Comprehensive Guidance for Electronic
 Records Management
NASA had established records management policies and procedures in accordance with
NARA regulations; however, NASA’s e-mail retention guidance, Executive
Notice 12-96, lacks details on the retention of official e-mail correspondence and cites
NASA policies that no longer exist. For example, the Executive Notice requires
hardcopy retention of e-mail messages “[s]hould official business be transacted using this
system,” but does not provide any guidance on how to identify e-mail messages as
official documents requiring retention. In addition, the Executive Notice cites NASA
Handbook 1441.1B, which NPR 1441.1D has replaced, and refers to outdated retention
schedules.


4
    The NASA Records Retention Schedules are divided into 10 subject categories, such as Organizational
    and Administrative, Legal and Technical, and Human Resources – Personnel, and correlate to the Agency
    Filing Scheme.
                                                                                                        5



NASA had developed comprehensive, updated guidance but as of January 2008 had not
finalized that guidance. Specifically, the draft revision to NPR 1441.1D, Section I.7,
provides guidance on the retention of electronic records, to include e-mail, that would
help ensure that employees understand and comply with NARA regulations for electronic
records management. Once the revised NPR is issued, NASA should rescind Executive
Notice 12-96.

NARA 36 C.F.R., Section 1234.24 requires agencies to develop procedures for the
maintenance of e-mail records in appropriate recordkeeping systems. NPR 1441.1D,
Section I.7e lacks electronic records management guidance and states that “[m]ore
specific policy, procedures, and guidelines for identifying and managing electronic
records are under development by the Office of the NASA Chief Information Officer.”
That statement has been in NPR 1441.1D since it was initially issued in February 2003.
To resolve the need for specific electronic records management guidance, the Agency
Records and Privacy Act Officer (NASA’s Records Officer) developed electronic records
management guidance for NPR 1441.1D, Section I.7. However, as of January 2008, that
guidance still needed to be submitted to the NASA CIO for review, approval, and
inclusion in the NPR.

NASA Personnel Do Not Always Understand and Comply with Federal and
 NASA Regulations
To verify senior management’s understanding and compliance with NARA regulations
and NASA’s requirements for the identification and retention of official e-mail
correspondence, as set forth in Executive Notice 12-96, we surveyed NASA’s senior
management officials (Administrator, Associate and Assistant Administrators, Center
Directors and Deputy Directors, and Mission and Program Directors and their Deputies).
After identifying the officials from NASA Headquarters (HQ), Johnson Space
Center (JSC), and Ames Research Center (ARC), we non-statistically selected, by
location, 25 percent of the total. 5 A total of 40 senior management officials were chosen
and provided a questionnaire for completion (see Enclosure 3). We obtained a
100 percent response for the questionnaire.

Based on questionnaire responses and subsequent interviews, we found that 18 senior
management officials (45 percent of those surveyed) were not aware of their
responsibilities, were uncertain whether they were required to retain their e-mail, or were
uncertain of how they were to retain e-mail. Because each employee is responsible for
determining whether materials, including e-mail correspondence, are an official record
requiring retention, NASA needs to ensure that current and adequate guidance exists for
employees to make informed e-mail records management decisions and to reduce
NASA’s risk of losing institutional memory, documentation of essential transactions, or
records that support NASA decisions.

5
    NASA audit liaison representatives at the three locations identified 157 NASA personnel as senior
    management officials (70 from HQ, 59 from JSC, and 28 from ARC).
                                                                                                              6



NASA’s Retention of Official E-Mail Correspondence Needs Improvement
NASA had not ensured that senior management officials were identifying, designating,
storing, and retaining official e-mail correspondence in accordance with NARA
regulations and NASA’s records management requirements. NARA 36 C.F.R.,
Section 1234.24 identifies specific criteria that must be in place for an electronic
recordkeeping system to be used as an official recordkeeping system and states that
agencies must not use an e-mail system to store Federal records unless the system meets
the specific criteria. If e-mail systems do not meet the specified criteria, agencies can
copy e-mail correspondence to a system that does or print relevant e-mail correspondence
for retention with their paper files. Because NASA does not have an official electronic
recordkeeping system, NASA’s CIO Executive Notice 12-96 states that if e-mail
correspondence is used as an official document, it must be printed, filed, maintained, and
disposed of in accordance with appropriate records management guidance.

Of the 40 senior management officials surveyed, 3 (7.5 percent) were complying with
NARA regulations and NASA’s records management requirements by printing and
retaining official e-mail correspondence. The remaining 37 (92.5 percent) did not
comply. Those officials stated that e-mail was not official correspondence (5, or
12.5 percent), that they did not retain any e-mail (14, or 35 percent), or that they retained
official e-mail electronically on local hard drives or network servers (18, or 45 percent).

NPR 1441.1D, Schedule 1, Item 22, states that records of high-level officials or, more
specifically, records of the “Office of the Administrator, Deputy, Associate
Administrator, Assistant Administrator, Center Director, or equivalent management
levels . . . reflecting policy, studies, and analyses and program development, including
correspondence and informal notes between NASA officials; with private sources,
foreign governments, and other U.S. Government agencies” are permanent records. 6
Item 22 also states that records of Division offices and lower can be destroyed or deleted
when 2 years old and that “[r]outine materials containing NO substantive information
regarding the daily activities of other than high level officials” can be destroyed or
deleted when no longer needed. All five of the senior management officials who stated
that their e-mail was not official correspondence are classified as either Top Management
or Division-level Officials, thus requiring retention of their e-mail correspondence for at
least 2 years. In fact, one of the five officials had already been identified by NASA as a
Top Management Official for permanent e-mail retention, and according to NASA’s
Records Officer, the remaining four senior management officials would fall into the
2-year retention period, based on their role or support function.

Unless all of NASA’s senior management officials comply with records retention
requirements to identify and retain official e-mail correspondence, NASA may lose or



6
    Permanent records may be retired to a Federal Records Center, or an approved facility, when 5 years old
    and then transferred to NARA when 10 years old.
                                                                                                         7



may have lost records containing essential transactions that protect the legal and financial
rights of the Government and persons directly affected by NASA activities.

NASA’s Records Management Training Needed to Be Implemented
NASA had not implemented Agency-wide electronic records management training, or
reminded all employees annually, to ensure that all e-mail users were aware of records
management requirements and understood the process of identifying, designating,
storing, and retaining official e-mail correspondence. NARA 36 C.F.R., Part 1222,
“Creation and Maintenance of Federal Records,” Section 1222.20, “Agency
Responsibilities,” requires that adequate training be provided to all agency personnel on
policies, responsibilities, and techniques for the implementation of recordkeeping
requirements and the distinction between records and nonrecord materials, regardless of
media, including those materials created by individuals using computers to send or
receive electronic mail. In addition, each Federal agency is required to remind all
employees annually of the agency’s recordkeeping policies and of the sanctions provided
for unlawful removal or destruction of Federal records. Similarly, NPD 1440.6G
mandates the implementation of adequate training to properly preserve official Agency
records in accordance with applicable statutory and regulatory requirements and requires
NASA’s Records Officer to provide records management training to Agency personnel.

During our audit, NASA’s Records Officer stated that NASA does not have Agency-wide
electronic records management training, and our survey of the Records Officer and
Center Records Manager identified that only 3 of the 13 Center Records Managers 7
maintained documentation to support the performance of Center-based electronic records
management training. In addition, of the 40 senior management officials surveyed,
37 (92.5 percent) stated that they had not received records management training. Aside
from the newly implemented retention of Top Management Officials’ e-mail, NASA
relies on Agency personnel to identify official e-mail correspondence for retention and,
therefore, electronic records management training is critical to ensure that Agency
personnel can identify official e-mail correspondence and take the proper steps to avoid
the risk of permanent loss of NASA’s institutional memory and decision-making record.

NASA’s Records Officer provided us with proposed electronic records management
training modules in August 2007. NASA planned to implement the training through the
System for Administration, Training, and Educational Resources for NASA (SATERN) 8
in February 2008. The training includes electronic records management modules that
will address NARA regulations for electronic records management, to include e-mail
retention.



7
    We surveyed NASA’s Records Officer and 13 Records Managers at 11 Centers (including HQ, where we
    surveyed 2 Records Managers, as we also did at the Jet Propulsion Laboratory).
8
    SATERN is a software application used by NASA to manage the learning activities and efforts of its
    personnel.
                                                                                         8



NASA’s Records Management Reviews Are Not Always Performed
NASA’s Records Officer and Center Records Managers did not consistently perform
records management reviews to ensure compliance with NARA regulations and NASA’s
requirements. NARA 36 C.F.R., Section 1220.42, “Agency Internal Evaluations,”
requires agencies to periodically evaluate its records management programs relating to
records creation and recordkeeping requirements, maintenance and use of records, and
records disposition. NARA states that the evaluations should include periodic monitoring
of staff determinations of the record status of documentary materials in all media and the
implementation of these determinations. In addition, NARA 36 C.F.R., Section 1234.10
requires agencies to perform reviews to ensure compliance with established agency
procedures, standards, and policies for electronic records management. NPD 1440.6G
mandates that NASA’s Records Officer perform records management reviews to
determine whether needed documentation is being created and maintained. The NPD
also requires that Center Records Managers perform reviews to ensure that permanent
and official records throughout the Agency are selected, identified, and protected. In
addition, the NPD calls for Center Records Managers to report annually to the CIO any
discrepancies that indicate records were not protected, preserved, and maintained in
compliance with current regulations. We found that NASA’s Records Officer and Center
Records Managers were not performing the reviews in accordance with NARA
regulations and NASA’s requirements.

While conducting our survey of NASA’s Records Officer and the 13 Center Records
Managers, we requested documentation supporting records management reviews and
self-assessments performed between January 1, 2005, and December 31, 2006.
Only 3 (21 percent) of the 14 9 could provide documentation supporting records
management reviews. However, none of those documented reviews specifically
addressed electronic records management. Electronic records management reviews can
better ensure that Agency personnel are identifying and retaining official e-mail
correspondence as required by NARA regulations and NASA’s requirements.

NASA’s noncompliance with electronic records management regulations and
requirements increases the risk of permanent loss of (1) institutional memory, (2) records
containing essential transactions that protect the legal and financial rights of the
Government and persons directly affected by NASA activities, and (3) records permitting
NASA to be responsive to Congress and oversight agencies.

Agency Migrating to an Electronic Recordkeeping System
Although an electronic recordkeeping system is not required for maintaining records,
NASA, in an effort to improve e-mail recordkeeping efficiency and effectiveness, began
migrating existing e-mail server environments to a single Agency-wide e-mail system
called NOMAD in November 2007. Because NOMAD, by itself, will not meet NARA

9
    NASA’s Records Officer and 13 Center Records Managers.
                                                                                        9



regulations for an electronic recordkeeping system, NOMAD will interface with
software, not yet procured, that meets the Department of Defense (DoD) 5015.02-STD,
“Electronic Records Management Software Applications Design Criteria Standard,”
April 25, 2007, which NARA endorses as the standard for an electronic recordkeeping
system. NASA expects that NOMAD and the interfacing software will be fully
operational by the end of fiscal year 2008. Once fully implemented, it will archive
electronic messages of all senior managers who generate permanently valued messages,
permitting easy search and retrieval for discovery purposes, as well as enabling easy
capture for their transfer to NARA.

In the interim, NASA identified and began capturing all e-mail correspondence of
146 Top Management Officials. Although this approach does not comply with NARA
regulations for electronic recordkeeping, it does provide for the permanent retention of
NASA senior management officials’ e-mail correspondence until NOMAD becomes fully
operational. Although NASA’s actions (NOMAD and the permanent retention of Top
Management Officials’ e-mail correspondence) will substantially reduce the risk of
inadvertent loss of official e-mail correspondence, NASA must take additional corrective
actions to ensure that Agency personnel comply with NARA regulations and NASA’s
requirements.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1. The NASA Chief Information Officer should finalize and issue
revised guidance—specifically, revisions to NPR 1441.1D, Section I.7—for identifying
and managing electronic records regardless of the retention environment and format
(hardcopy or electronic) and rescind CIO Executive Notice 12-96.

   Management’s Response. The NASA CIO concurred, stating that updated
   procedural requirements for electronic records management have been incorporated,
   by Change 4, into NPR 1441.1D, Section I.7. Included in Change 4 is the revision to
   the NASA Records Retention Schedules, Item 22, which includes e-mail records, and
   was approved by the Archivist of the United States on November 8, 2007.

   The finalized, updated NPR was submitted to the NASA Directives Officer on
   February 4, 2008, for uploading into the NASA Online Directives Information
   System (NODIS). Once uploaded, the NASA CIO will issue a memorandum to
   Center Directors and Headquarters Officials-in-Charge canceling CIO Executive
   Notice 12-06.

   Evaluation of Management’s Response. Management’s planned actions are
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.
                                                                                           10



Recommendation 2. The NASA Chief Information Officer should implement
mandatory electronic records management training.

   Management’s Response. The NASA CIO concurred, stating that the Office of the
   CIO had developed and implemented training. As of February 4, 2008, the SATERN
   training module, “NASA Records Management for Everyone,” is required for all
   NASA civil service employees and highly recommended for contractors who perform
   or support NASA functions. The mandatory module provides an overview of records
   identification and management requirements, including e-mail records, and provides
   references to more in-depth instruction. Five additional modules are available in
   SATERN, and four more are expected to be made available over the next several
   months.

   Evaluation of Management’s Response. Management’s planned actions are
   responsive. The recommendation is resolved and closed.

Recommendation 3. The NASA Chief Information Officer should reinforce the
identification, retention, and archiving of official electronic records (e-mail) regardless of
the retention environment and format (hardcopy or electronic) in accordance with NARA
regulations and NASA’s requirements.

   Management’s Response. The NASA CIO concurred. To reinforce employees’
   understanding of the requirements for identifying, retaining, and archiving official
   records, regardless of format, the NASA CIO sent an e-mail message to all NASA
   employees on January 24, 2008, reminding them of their general records management
   responsibility, specifically with regard to e-mail records. Further, beginning January
   2009, the Office of the CIO will provide annual reminders to Agency personnel of
   their responsibilities to comply with Federal regulations and NASA policy and
   requirements.

   Evaluation of Management’s Response. Management’s planned actions are
   responsive. The recommendation is resolved and closed.

Recommendation 4. The NASA Chief Information Officer should monitor electronic
records management reviews to ensure they are performed as required.

   Management’s Response. The NASA CIO concurred, stating that the Office of the
   CIO will develop a records management review plan by June 30, 2008, that sets forth
   a multi-pronged strategy for conducting periodic Center and Agency-wide reviews of
   records management compliance.

   Evaluation of Management’s Response. Management’s comments are responsive.
   The recommendation is resolved and will be closed upon completion of the records
   management review plan and our verification of management’s corrective action.
                                                                                       11



We appreciate the courtesies extended to our staff during the audit. If you have any
questions, or need additional information, please contact Ms. Wen Song, Information
Technology Director, Office of Audits, at 202-358-2588.


   signed
Evelyn R. Klemstine

5 Enclosures

cc:
Agency Records and Privacy Act Officer
Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center
CIO, Ames Research Center
CIO, Dryden Flight Research Center
CIO, John H. Glenn Research Center at Lewis Field
CIO, Goddard Space Flight Center
CIO, Headquarters
CIO, Jet Propulsion Laboratory
CIO, Lyndon B. Johnson Space Center
CIO, John F. Kennedy Space Center
CIO, Langley Research Center
CIO, George C. Marshall Space Flight Center
Deputy CIO, George C. Marshall Space Flight Center
CIO, John C. Stennis Space Center
                              Scope and Methodology
We performed this audit from July 2007 through January 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We completed the following steps in conducting our audit of NASA’s retention of
official e-mail:

   •   Identified and reviewed the NARA regulations and NASA’s requirements (see
       Enclosure 2).

   •   Developed a questionnaire to survey selected senior management officials (see
       Enclosure 3) to determine their
           o awareness of NASA requirements for electronic records management
             specifically the identification and retention of official e-mail;
           o compliance with electronic records requirements;
           o rationale for noncompliance in the event they were not complying with
             regulations; and
           o training received on electronic records management and specifically
             official e-mail records.

   •   Obtained Center-provided listings of senior management officials at HQ, JSC, and
       ARC to ensure accurate distribution of survey questionnaire.

   •   Verified the senior management officials’ listings for accuracy and completeness.

   •   Non-statistically selected, by location, 25 percent of the total using E-Z Quant’s
       random number generator to identify the distribution for our senior management
       questionnaire.

   •   Distributed the survey questionnaire to senior management officials: 18 at HQ,
       15 at JSC, and 7 at ARC. We obtained a 100 percent response.

   •   Analyzed the senior management questionnaire responses and conducted
       interviews with selected senior management officials to validate responses and
       determine compliance with NARA regulations and NASA’s requirements.

   •   Developed a survey questionnaire for Center Records Managers (see Enclosure 4)
       to evaluate their
           o requirements for storage/retention of official e-mail;

                                                                               Enclosure 1
                                                                               Page 1 of 2
           o verification of compliance with policy;
           o compliance in performing records management reviews;
           o definition of an electronic recordkeeping system(s) for retention of official
             e-mail;
           o training received on NARA regulations and NASA’s requirements for
             electronic records management;
           o requirements for and provision of training to Agency personnel on
             electronic records management; and
           o requirements for transferring electronic records to NARA.

   •   Distributed the survey questionnaire to 14 Records Managers: 1 to NASA’s
       Records Officer at HQ and the remaining 13 to Records Managers at NASA’s
       11 Centers. We obtained a 100 percent response.

   •   Analyzed the Center Records Manager questionnaire responses, verifying
       compliance with NARA regulations and NASA’s requirements.

   •   Requested from all NASA Centers documentation to support records management
       reviews and/or self-assessments performed between January 1, 2005, and
       December 31, 2006.

Computer-Processed Data. We relied on computer-processed data for this audit. We
obtained from the audit liaison representatives at HQ, JSC, and ARC listings of persons
identified as senior management officials at each location. We performed limited testing
to validate the reliability and integrity of the listings by comparing the listings provided
against recent phone listings, organizational charts, and e-mail groups identified as senior
staff. Based on this limited testing, we placed reliance on the listings of senior
management officials to be complete.

Review of Internal Controls. We reviewed internal controls for NASA’s
activities relating to official e-mail retention policy, training, and reviews. We
identified weaknesses in NASA requirements, training, and records
management reviews as discussed in this memorandum.

Prior Coverage. No prior coverage of the retention and storage of e-mail was identified.




                                                                                 Enclosure 1
                                                                                 Page 2 of 2
                         Federal and NASA Regulations
We used the following Federal and NASA regulations to conduct our audit.

NARA 36 C.F.R., “Records Management” (July 1, 2006, Edition)

   •   Part 1220, “Federal Records; General”

   •   Part 1222, “Creation and Maintenance of Federal Records”

   •   Part 1228, “Disposition of Federal Records”

   •   Part 1234, “Electronic Records Management”

DoD 5015.02-STD, “Electronic Records Management Software Applications Design
Criteria Standard,” April 25, 2007

NPD 1440.6G, “NASA Records Management,” December 12, 2002

NPR 1441.1D, “NASA Records Retention Schedules (w/Change 3, 1/31/06)”

CIO Executive Notice 12-9, “NASA Electronic Mail,” February 20, 1996

We also reviewed the draft revision to NPR 1441.1D, Section I.7, and the training
developed by the NASA Records Officer.




                                                                             Enclosure 2
                                                                             Page 1 of 1
                  Senior Management Official Questionnaire
The NASA Office of Inspector General (OIG) is performing an audit of the retention of
NASA’s official electronic mail (e-mail) by NASA employees. As part of this audit, we
sampled NASA senior staff with active NASA e-mail accounts to complete our
questionnaire regarding their retention of official e-mail. You were selected as part of the
survey sample and are requested to respond to the questions and return your responses to
your Center’s Audit Liaison Representative (ALR) within a week of receipt of the
questionnaire. At a later date we will schedule a meeting with you to validate your
responses to the questionnaire. Any questions or concerns you have regarding the survey
or the questions should be directed to NASA OIG Project Manager, Mr. Mario Carbone
at mario.m.carbone@nasa.gov, or 281-483-9572, or Project Lead, Mr. Bret Skalsky at
bret.skalsky@nasa.gov, or 281-244-1156.

Please respond to the following:

Name:                                         Organization:

E-mail address:                               Phone number:

1. Are you aware of NASA’s or your Center’s official policy on the retention of official
   e-mail? (circle one)          Yes             No
     1. a. If no, explain why not.
     1. b. If yes, identify the policy.
     1. c. If yes, identify the process for identifying and storing/retaining official
           e-mail.

2. In your opinion, what constitutes an official e-mail?

3. Have you had any training related to what constitutes an official e-mail and what your
   responsibilities are regarding official e-mail? (circle one) Yes          No
     3. a. If yes, from whom?
     3. b. If yes, when did the training occur?
     3. c. If yes, what training was provided?
     3. d. If yes, identify your responsibilities regarding official e-mail.

4. Do you retain all official e-mail? (circle one)        Yes              No
    4. a. If no, explain why not.
    4. b. If yes, explain your process for identifying, retaining/storing, and
          retrieving your official e-mail.




                                                                                 Enclosure 3
                                                                                 Page 1 of 1
                    Center Records Manager Questionnaire
The NASA Office of Inspector General (OIG) is performing an audit of the retention of
NASA’s official electronic mail (e-mail) by NASA employees. As part of this audit, we
are sending you this questionnaire to inquire about your role in the retention of official
e-mail at your Center. At a later date we will schedule a meeting with you to validate
your responses to the questionnaire. Any questions or concerns you have regarding the
questionnaire should be directed to NASA OIG Project Manager, Mr. Mario Carbone at
mario.m.carbone@nasa.gov, or 281-483-9572, or Project Lead, Mr. Bret Skalsky at
bret.skalsky@nasa.gov, or 281-244-1156.

Please respond to the following:

Name:                                 Organization:

E-mail address:                       Phone number:

1. Please describe the Center’s policy regarding the storage/retention of official e-mail.

2. Is the Center’s e-mail storage/retention policy identical to that of the Agency’s?
   (circle one)         Yes             No
     2. a. If no, explain the differences between the policies and the reason for the
           difference.

3. What role do you, as the Center Records Manager, play with respect to the Center’s
   policy for storing/retaining official e-mail?

4. How do you ensure that employees are complying with the e-mail retention policy?

5. Does the Center have written procedures and guidance for employees for identifying
   official e-mail? (circle one)         Yes             No
     5. a. If yes, identify the procedure(s) and provide a copy.
     5. b. If no, explain why not.

6. Does the Center have written procedures and guidance for employees for
   storing/retaining official e-mail? (circle one)        Yes        No
     6. a. If yes, identify the procedure(s) and provide a copy.
     6. b. If no, explain why not.

7. What constitutes an official e-mail and, hence, requiring storage/retention?

8. What constitutes an appropriate recordkeeping system suitable for retaining official
   e-mail?




                                                                               Enclosure 4
                                                                               Page 1 of 2
9. Can the recordkeeping system be either electronic (e.g., stored on a computer server)
   or manual (e.g., stored as hardcopies in a file cabinet)? (circle one)    Yes    No
     9. a. If no, explain why not.
     9. b. If yes, please identify the name of the server(s) and the name, phone number
           of who to contact regarding the server.

10. Does the Center require that all employees’ official e-mail be electronically backed
    up? (circle one)         Yes           No
      10. a. If yes, how is the backup performed?

11. What training did you, as the Center Records Manager, receive relative to policy and
    procedures on e-mail retention? (Please specify the training course(s) attended.)

12. What training is available to Center employees pertaining to e-mail retention? Please
    be specific as to the course title, training provider, frequency of course offerings, etc.

13. Does NASA have a policy for the transfer of official records to NARA?
    (circle one)        Yes             No
      13. a. If no, explain why not.
      13. b. If yes, identify the policy and provide a copy.




                                                                                  Enclosure 4
                                                                                  Page 2 of 2
Management’s Comments




                        Enclosure 5
                        Page 1 of 3
Enclosure 5
Page 2 of 3
Enclosure 5
Page 3 of 3
